HHS/OIG, Audit -"Audit of Georgia's Medicaid Upper Payment Limit Payments for Non-State Government
Inpatient Hospitals,"(A-04-03-02026)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Georgia's Medicaid Upper Payment Limit Payments for Non-State Government Inpatient Hospitals," (A-04-03-02026)
August 4, 2005
Complete
Text of Report is available in PDF format (751 kb). Copies can also be obtained by contacting the
Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether Georgia, from July 2002 through December
2002, calculated the upper payment limit (UPL) for non-State government inpatient hospitals in accordance
with Federal regulations and the approved State plan amendments and properly included UPL payments
in the calculation of hospital-specific disproportionate share hospital (DSH) limits.
After issuing the draft report, Georgia informed us that it received approval
from the Centers for Medicare and Medicaid Services (CMS) approval to retroactively change the methodology
used to determine UPL calculations.  Because of CMSs actions, the methodology we reviewed is
no longer applicable and our UPL findings have been negated.  However, the prior methodology used
to calculate Georgias non-State government inpatient UPL did not comply with Federal regulations or
the approved State plan amendments.  As a result, Georgia made UPL overpayments of $67.5 million
($40.2 million Federal share).
On a separate matter, Georgia may have overstated its DSH limits by not including
$144 million in UPL payments in its DSH calculation.  However, in December 2001, CMS granted Georgia
a waiver allowing the inclusion of the UPL payments in future years DSH limit calculations.
Based on CMSs actions, we have no recommendations.